<html>
<title> - PROTECTING INTERNATIONAL RELIGIOUS FREEDOM</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





               PROTECTING INTERNATIONAL RELIGIOUS FREEDOM

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 18, 2014

                               __________

                           Serial No. 113-152

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                  ______

                         U.S. GOVERNMENT PRINTING OFFICE 

91-569 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      
                      
   
   
   
   
   
   
   
   
   
   
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 TONY CARDENAS, California
THOMAS MASSIE, Kentucky              STEVEN A. HORSFORD, Nevada
DOUG COLLINS, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
MARK MEADOWS, North Carolina         Vacancy
KERRY L. BENTIVOLIO, Michigan
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

                   Subcommittee on National Security

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts, 
JOHN J. DUNCAN, JR., Tennessee           Ranking Minority Member
JUSTIN AMASH, Michigan               CAROLYN B. MALONEY, New York
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
TREY GOWDY, South Carolina           JACKIE SPEIER, California
CYNTHIA M. LUMMIS, Wyoming           PETER WELCH, Vermont
ROB WOODALL, Georgia                 MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan




















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 18, 2014...............................     1

                               WITNESSES

Ms. Katrina Lantos Swett, Ph.D., Chair, U.S. Commission on 
  International Religious Freedom
    Oral Statement...............................................     4
    Written Statement............................................     7
Mr. Thomas F. Farr, Ph.D., Director, Religious Freedom Project, 
  Berkley Center for Religion, Peace and World Affairs, 
  Georgetown University
    Oral Statement...............................................    26
    Written Statement............................................    29
Mr. Robert T. Smith, Managing Director and Regional Advisor for 
  the United States, J. Reuben Clark Law School, Brigham Young 
  University
    Oral Statement...............................................    36
    Written Statement............................................    38
Mr. Emmanuel Ogebe, Special Counsel, Justice for Jos Project, 
  Jubilee Campaign
    Oral Statement...............................................    52
    Written Statement............................................    54
Mr. Tad Stahnke, Vice President, Research and Analysis, Human 
  Rights First
    Oral Statement...............................................    70
    Written Statement............................................    73
Ms. Sarah Sewall, Under Secretary for Civilian Security, 
  Democracy, and Human Rights, U.S. Dept of State
    Oral Statement...............................................    96
    Written Statement............................................   100

 
               PROTECTING INTERNATIONAL RELIGIOUS FREEDOM

                              ----------                              


                      Thursday, September 18, 2014

                  House of Representatives,
                 Subcommittee on National Security,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:20 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the subcommittee] presiding.
    Present: Representatives Chaffetz, Mica, Gowdy, Woodall, 
Bentivolio, Tierney, Maloney, and Kelly.
    Staff Present: Brian Beattie, Professional Staff Member; 
Melissa Beaumont, Assistant Clerk; Molly Boyl, Deputy General 
Counsel and Parliamentarian; John Cuaderas, Deputy Staff 
Director; Linda Good, Chief Clerk; Caroline Ingram, Counsel; 
Jim Lewis, Senior Policy Advisor; Mark D. Marin, Deputy Staff 
Director for Oversight; Ashok M. Pinto, Chief Counsel, 
Investigations; Laura L. Rush, Deputy Chief Clerk; Andrew 
Shult, Deputy Digital Director; Jaron Bourke, Minority 
Administrative Director; Courtney Cochran, Minority Press 
Secretary; Valerie Shen, Minority Counsel; Katie Teleky, 
Minority Staff Assistant; Peter Kenny, Minority Counsel.
    Mr. Chaffetz. Committee will come to order.
    I'd like to begin this hearing by stating the Oversight 
Committee mission statement.
    We exist to secure two fundamental principles, first, 
Americans have a right to know that the money Washington takes 
from them is well spent; and, second, Americans deserve 
efficient, effective government that works for them.
    Our duty on the Oversight and Government Reform Committee 
is to protect these rights. Our solemn responsibility is to 
hold government accountable to taxpayers because taxpayers have 
a right to know what they get from their government.
    We will work tirelessly in partnership with citizen 
watchdogs to deliver the facts to the American people and bring 
genuine reform to the federal bureaucracy. This is the mission 
of the Oversight and Government Reform Committee.
    I want to thank everybody for attending today and 
particularly our witnesses that we're about to hear from.
    The title of the hearing is ``Protecting International 
Religious Freedom.'' I want to welcome Ranking Member Tierney 
and members of the subcommittee and those of you that are here 
in the audience.
    Religious freedom, often referred to as the first freedom, 
is a fundamental human right. It is enshrined in the First 
Amendment of our Constitution. It is a right essential to our 
human existence and one that all mankind deserves.
    It is also a well-established tenet of international law, 
including both the UN Universal Declaration of Human Rights and 
the International Covenant on Civil and Political Rights, an 
international treaty ratified by 156 nations, including the 
United States of America.
    Religious freedom has long been neglected as part of the 
U.S. human rights agenda. Congress passed the International 
Religious Freedom Act, creating new bureaucracies and policy 
tools to ensure religious freedom became a core objective of 
U.S. foreign policy.
    Now, regrettably, nearly 16 years after its passage, 
Congress's intent in passing the International Religious 
Freedom Act is being thwarted by mandates within the act that 
are also being ignored.
    A few months after the hearing we held last June on this 
topic, the Ambassador-at-Large for International Religious 
Freedom at the State Department resigned. Unfortunately, that 
position has remained vacant for nearly a year.
    But just recently the President nominated Rabbi David 
Saperstein to serve as the next Ambassador-at-Large for 
International Religious Freedom. This is a step in the right 
direction. We hope that the United States Senate will confirm 
this person sooner rather than later. Once confirmed by the 
Senate, however, he must be given all the necessary tools and 
resources to succeed.
    A study released earlier this year by the Pew Research 
Center found that 76 percent of the world's population lives in 
countries with high or very high levels of restriction on 
religion. Even more troubling, the number of countries with a 
high or very high level of social hostilities involving 
religion reached a 6-year peak in 2012, with hostilities 
increasing in almost all major regions of the world aside from 
the Americas.
    Just last month in Nigeria, Boko Haram militants overran 
the church compound and the rectory of the St. Denis Parish. 
Militants are now using the former church compound as a base.
    Shortly before these events, Boko Haram carried out a 
series of bombings in the home of the predominantly Christian 
community. Their gunmen used IEDs and petrol bombs to destroy 
five churches.
    Sadly, events such as these have become all too common. 
Never has the time been clearer for the need to strengthen 
America's religious freedom policy.
    I am hard-pressed to name any countries where the United 
States engagement on international religious freedom has made a 
measurable impact to lessen the persecution of religious 
minorities.
    Given U.S. national security interests in combating 
religious extremism and fostering stable democratic 
institutions, the importance of promoting religious freedom is 
clear. The administration's pattern of marginalizing 
international religious freedom must end. We can certainly do 
better.
    It is my hope that our discussions here today will 
highlight the areas where improvement is necessary while 
offering recommendations as we move forward to ensure that 
international religious freedom is at the forefront of American 
foreign policy.
    I look forward to hearing from our distinguished witnesses, 
but we are now going to hear from the ranking member and a 
friend who is also celebrating his birthday today. So I know we 
all join in wishing him a happy, happy birthday.
    I recognize the ranking member, the gentleman from 
Massachusetts, Mr. Tierney.
    Mr. Tierney. Well, thank you very much, Mr. Chairman. Thank 
you for your best wishes as well. It is the anniversary of my 
39th birthday, which I continually have over and over and over 
again. So--and as a gift to all of you, I am going to waive the 
oral presentation on my remarks and ask unanimous consent to 
enter my remarks upon the record.
    Mr. Chaffetz. Thank the gentleman.
    Mr. Chaffetz. All members will have 7 days to submit 
opening statements for the record.
    And we will now recognize our panel.
    Dr. Katrina Lantos Swett is the chair of the United States 
Commission on International Religious Freedom and President and 
CEO of the Lantos Foundation for Human Rights.
    Dr. Thomas F. Farr is the director of the Religious Freedom 
Project and the program on Religion and U.S. Foreign Policy at 
Georgetown's Berkley Center for Religion, Peace and World 
Affairs.
    Mr. Robert Smith is the managing director and regional 
advisor for the United States at the International Center for 
Law and Religious Studies at the J. Reuben Clark Law School at 
Brigham Young University.
    BYU happens to be my alma mater. Glad to have you here, 
sir.
    And Mr. Emmanuel Ogebe--did I pronounce that properly? He 
said close enough. My apologies--is special counsel to the 
Justice for Jos Project at the Jubilee Campaign.
    Appreciate you being here.
    And Mr. Tad Stahnke is the vice president for Research and 
Analysis at Human Rights First.
    We thank you all for being here and appreciate it. And 
consistent with committee practices and rules, all witnesses 
will be sworn before they testify.
    So if you would please rise and raise your right hands.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Mr. Chaffetz. Thank you. You may be seated.
    Let the record reflect that the witnesses all answered in 
the affirmative.
    In order to allow time for discussion, we would appreciate 
it if you would limit your verbal comments to 5 minutes. A full 
statement and additional comments, we would be happy to enter 
those into the record.
    But now we will recognize Dr. Lantos Swett for 5 minutes.

                       WITNESS STATEMENTS

            STATEMENT OF KATRINA LANTOS SWETT, PH.D.

    Ms. Lantos Swett. Thank you, Congressman Chaffetz.
    And, of course, it is a pleasure to be with you as well, 
Congressman Tierney. More from my neck of the woods, New 
Hampshire, and someone who served with both my father and my 
husband in this body. So it is lovely to see you.
    And I do request that my written statement be submitted for 
the record.
    This hearing is very timely. Events since my June 2013 
testimony before this subcommittee starkly make the point. If 
the U.S. doesn't get religious freedom right, we won't get U.S. 
foreign policy right.
    My written testimony reviews the International Religious 
Freedom Act, IRFA, over the past 15 years and USCIRF's role in 
its implementation and offers recommendations. My focus today 
is on events that underscore the connections between religious 
freedom, U.S. foreign policy, and U.S. and global security.
    ISIL's barbarism in Syria and Iraq is in the forefront of 
all of our minds. With its growing strength, occupation of 
broad swaths of land, brutal executions, and threats to bring 
its war to America and elsewhere, ISIL poses a chilling danger.
    But we should remember ISIL is not alone in perpetrating 
violence in these countries. USCIRF has highlighted the al-
Assad regime's killing of tens of thousands and displacing of 
millions while exacerbating sectarianism, resulting in severe 
religious freedom violations affecting all Syrians.
    And USCIRF long has identified the Iraqi Government's 
failure to stem non-state actors' egregious and growing 
violence against civilians, which increased rather than reduced 
Sunni-Shia tensions.
    ISIL's recent extraordinary territorial gains in Northern 
Iraq poses an existential threat, especially to religious 
minorities, including Christians, Yazidis, Shabak, Kakai, and 
Turkmen, and religious and ethnic minorities in Syria, 
including Christians and Alawites.
    Less well known and less well recognized is ISIL's 
brutality against both country's Shia Muslims and dissenting 
Sunni Muslims.
    So what should the United States do? USCIRF has welcomed 
U.S. assistance to the displaced in Northern Iraq, and we 
strongly support additional assistance to meet dire needs.
    We also support raising the refugee resettlement ceiling 
and increasing the share of refugees from the region for Iraqis 
and Syrians vulnerable to persecution and expanding the 
existing priority categories that allow certain Iraqis direct 
access to the U.S. admissions program without UNHCR referral.
    While USCIRF cannot speak to the economic, political, and 
military aspects of any plan to confront ISIL, we encourage our 
government to weave into these plans the promotion of the 
freedom of religion and belief and protection of religious 
minorities.
    But the U.S. Government needs to weave religious freedom 
more broadly into its plans before crises erupt. ISIL isn't the 
only non-state actor that persecutes. Just look at Boko Haram 
in Nigeria and al-Shabab in Somalia.
    Governments also play a repressive role in many countries, 
including Burma, China, Russia, Pakistan, and Vietnam. These 
violations often lead to instability and violence, thereby 
underscoring the importance of the U.S. using all the tools at 
its disposal, including IRFA.
    With growing violent religious extremism and continuing 
authoritarianism, the United States needs to energize and 
mainstream the promotion of religion or belief.
    The executive branch should reinvigorate its commitment to 
religious freedom by, number one, ensuring that high-level 
officials speak publicly about the importance of religious 
freedom and include concerns across U.S. engagements with 
countries, including in economic, political, and security 
discussions, to achieve a whole of government effort.
    We should mandate increased training for diplomats on the 
importance of religious freedom and expanding U.S. Government 
programming on religious freedom work on the ground.
    We should work in coalition with other nations to advance 
religious freedom, such as the contact group of governments 
focusing on international religious freedom that has recently 
been initiated by the Canadians.
    We need to annually designate countries of particular 
concern--and that is a term of art within the legislation--for 
particularly severe violations of religious freedom, and if 
administrations do not do this, Congress legislatively should 
require annual designations.
    We should ensure that countries of particular concern, or 
the CPC list, expands and contracts as conditions warrant so 
glaring omissions like Pakistan and Vietnam can be correctly 
designated.
    Congress has an important role to play in promoting 
religious freedom by amending IRFA, our authorizing 
legislation, to expand the CPC classification to allow us to 
designate countries where particularly severe religious freedom 
violations are occurring, but a government doesn't exist or 
control its territory, such as in the Central African Republic, 
and amending IRFA to allow non-state actors also to be 
designated, those who perpetrate particularly severe religious 
freedom violations, such as ISIL, which, in the case of ISIL, 
they claim to be a state and, yet, under the terms of our 
statue, we really wouldn't be able to address them directly.
    We would like to see Congress sponsor legislation that 
promotes freedom of religion or belief to give our government 
the tools and resources it needs and signals to foreign 
governments the importance of religious freedom in bilateral 
relations.
    We would love to see Congress hold more hearings such as 
this one in support of religious freedom to reinforce that our 
government must actively promote this freedom.
    Congress is uniquely situated to raise concerns about 
religious freedom during delegation trips abroad and supporting 
those advocating for change by meeting with civil society and 
prisoners.
    And, finally, we would like to encourage members of 
Congress to participate in the Defending Freedom's Project, an 
effort of the Tom Lantos Human Rights Commission, USCIRF, and 
Amnesty, through which members of Congress individually 
advocate for prisoners of conscience.
    We face an enormously challenging landscape abroad for 
freedom of religion and belief. We can seek constructive change 
by making religious freedom a central component of U.S. foreign 
policy, improving our use of existing tools and creating new 
ones for a rapidly changing environment. Never have the stakes 
been higher.
    Thank you.
    Mr. Chaffetz. Thank you.
    [Prepared statement of Ms. Swett follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Chaffetz. Dr. Farr.

               STATEMENT OF THOMAS F. FARR, PH.D.

    Mr. Farr. Mr. Chairman, members of the subcommittee, thank 
you for inviting me to this important hearing.
    Let me begin by giving credit where credit is due, in the 
State Department. There are in the Department officials who 
care deeply about religious freedom and whohave worked hard to 
improve U.S. policy. In my prepared testimony I give some 
examples of their work.
    Unfortunately, that work is marginalized within the 
Department. Their efforts are ad hoc. None is part of an 
integrated strategy to advance religious freedom. Indeed, such 
a strategy has not existed for the almost 6 years of this 
President's tenure, and it does not exist today.
    As a consequence, the United States has had virtually no 
impact on the global rise of religious persecution. We have 
also missed important opportunities to employ religious freedom 
policy as a means of undermining the development of violent 
religious extremism, encouraging economic growth, and helping 
struggling democracies to stabilize.
    The evidence for this stark assessment is compelling. I 
cannot, like the chairman, identify a single country in the 
world where the United States, under this administration, has 
advanced religious freedom or reduced religious persecution.
    I believe the President's nominee for the position of 
Ambassador-at-Large, Rabbi David Saperstein, should be 
confirmed immediately. But when he steps into the job, the post 
of Ambassador-at-Large will have been vacant for almost a year, 
since the departure of the previous incumbent, and vacant for 
over half the tenure of this President.
    Compare the administration's treatment of this position 
with another similar job, that of Ambassador-at-Large for 
Global Women's Issues. Someone has been in that position for 
virtually the entire tenure of this administration. Why? 
Because women's issues are a priority, as they should be.
    It is difficult to conclude that the religious freedom 
Ambassador or the issue he represents are perceived as 
important at the State Department. It is no surprise, then, 
that the Ambassador for Women's Issues reports directly to the 
Secretary of State, but the Ambassador-at-Large for Religious 
Freedom reports to a much lower-level official, many levels 
removed from the Secretary.
    You can be sure that this marginalization of the Ambassador 
and U.S. policy is not lost on America's diplomats, nor is it 
lost on foreign governments and those who persecute on the 
basis of religion.
    Internationally, the status of religious freedom continues 
to decline. Increasing numbers of human beings are subjected to 
violent religious persecution either because of their religious 
beliefs and practices or, as in the case in the recent barbaric 
and cruel beheadings of British and American citizens, because 
of the religious beliefs and practices of their tormentors.
    As I see it, Mr. Chairman, there are two powerful reasons 
for a comprehensive American strategy to advance religious 
freedom. The first is a moral imperative.
    Last year, at a conference in Rome, Iraqi Patriarch Louis 
Raphael Sako, a man now in the eye of the storm, said something 
that still haunts me. ``If they kill us all,'' he said, ``will 
you do something then?'' I believe we have a responsibility to 
that man and his flock and to the others of Iraq and Syria and 
elsewhere who are fending for their lives.
    But Patriarch Sako said something else that day. The title 
of his speech was ``What happens to the Middle East if 
Christians flee?'' The answer was two-fold. Terrible suffering 
for the Christians, but also increased instability and harm to 
the societies themselves.
    Here lies the second reason for a comprehensive U.S. 
strategy. Religious freedom isn't simply a right not to be 
tortured or killed or the freedom to worship privately. It is a 
fundamental human right that has distinct and inevitable public 
dimensions. It is necessary, necessary not only for individual 
human flourishing, but for the success of any state, especially 
highly religious nations like those of the Middle East.
    Ample research has shown what common sense suggests. 
Democracies can't consolidate without religious freedom. 
Economies can't develop without religious freedom. And 
religious freedom can be a counter to violent religious 
extremism.
    For all these reasons, I call upon the President of the 
United States to issue a presidential policy directive on 
international religious freedom and American national security.
    This directive would mandate a coordinated U.S. religious 
freedom strategy. It would directly involve all U.S. foreign 
policy agencies under the leadership of the Ambassador-at-
Large. It would direct mandatory training for American 
diplomats and other officials involved in carrying out the new 
strategy.
    I would note one additional rationale for involving 
religious freedom in our national security: Blood and treasure. 
The successful surge of 2007 in Iraq created an opportunity to 
convince the majority Shiite community that, if they failed to 
integrate Sunnis and other minorities into the political 
system, the new Iraqi state would fail. In short, they needed 
to move toward religious freedom if they were to succeed as a 
state that would be stable and free of religious violence and 
conflict as it has today.
    We didn't do that, and the consequences have been 
catastrophic. Today ISIS poses a serious threat to the United 
States. Military action is now necessary to defeat ISIS, but 
integrating religious freedom into our future strategy can 
undermine the institutions and habits that give rise to 
Islamist terrorism and reduce the need for future military 
action. At a fraction of the cost and without loss of blood on 
the part of anyone, a diplomatic counterterrorism offensive 
could increase American national security.
    Let me end by quoting from Rabbi Saperstein's testimony 
before the Senate Foreign Relations Committee. He said, ``I 
will seek to engage every segment of the State Department and 
the rest of the U.S. Government to integrate religious freedom 
into our Nation's stagecraft, counter terrorism, conflict 
stability efforts, economic development and human rights.''
    Precisely so, the Senate should confirm him immediately. 
Saperstein is a talented man, but he will not succeed if the 
President, the Secretary of State, and the Congress don't give 
him the tools to succeed.
    I end my testimony, Mr. Chairman, with five suggestions for 
this committee and the Congress to amend the International 
Religious Freedom Act which will help our religious freedom 
policy to succeed.
    Mr. Chaffetz. Thank you.
    [Prepared statement of Mr. Farr follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Chaffetz. Mr. Smith.

                  STATEMENT OF ROBERT T. SMITH

    Mr. Smith. Thank you, Mr. Chairman and members of the 
subcommittee. It is wonderful to be with you today.
    I am grateful for the opportunity to discuss international 
religious freedom, and my aim is to discuss the ways that the 
U.S. can improve its religious freedom policy to make a 
meaningful difference in improving international religious 
freedom. I ask that my written testimony be submitted to the 
record.
    At the outset, let me indicate that I am conscious that 
this year's hearing builds on testimony received by this 
subcommittee at a similar hearing last year. That testimony 
established that religious freedom throughout the world is 
getting worse, not better.
    And, unfortunately, initiatives under the International 
Religious Freedom Act, or IRFA, are not doing as much as could 
be done to reverse that trend.
    Dr. Farr and the chairman have both indicated today that 
they could not identify a single country whose religious 
freedom has improved as a result of U.S. religious freedom 
policy. That must change.
    My written testimony endorses nine concrete recommendations 
that were made last year, some of which have been repeated 
today. I've noted in my written testimony that, in each case, 
the act currently permits the suggested changes.
    My first recommendation is to urge this subcommittee to act 
on those recommendations from last year. My major additional 
recommendations focus on urging much greater emphasis on those 
aspects of IRFA that contemplate identifying and incentivizing 
better religious compliance through the use of positive 
measures authorized by the act.
    The first policy goal of the act is condemnation. The act 
specifically says that it shall be the policy goal of the 
United States to condemn violations of religious freedom. This 
policy goal undergirds the annual reporting requirements and 
the sanction regime that the act establishes.
    While it is no doubt important to retain those aspects of 
IRFA that hold egregious violators to account, this purpose has 
inevitably caused tension and concern in shaping U.S. foreign 
policy. The practical result has been that, under both 
Republican and Democratic administrations, the State Department 
has failed to designate countries of particular concern, or 
CBCs, annually and then to impose sanctions as required by the 
act. In fact, they have--the State Department has designated 
CPCs in only 3 of the last 7 years, with 2014 still pending.
    In fact, the subcommittee has also heard that discrete 
sanctions under the act have only been imposed on a single 
country in its entire 16-year history. All other sanctions have 
simply been double-counted or waived.
    But with limited CPC designations and almost no actual 
motivating sanctions, it is--is it any wonder that U.S. policy 
has had sufficient--insufficient impact on the worldwide 
international religious freedom?
    What I suggest is that the problem may not be entirely with 
State, but with the overemphasis on the condemnation goal in 
IRFA and the sanction regime it implements. In my view, IRFA 
should place much greater emphasis on identifying opportunities 
for making a meaningful difference.
    This can be done by first identifying the countries most 
open to religious freedom improvements and, second, by 
encouraging incentives and assistance to improve religious 
freedom.
    While sanctions are an important backstop for the worst 
offenders of religious freedom, this isn't where many of the 
real opportunities lie.
    In addition to focus on countries of particular concern, we 
need to focus on countries of particular opportunity, as my 
colleague Cole Durham has called them. We need to do a much 
better job of identifying the latter so we can help them find 
ways to make concrete and significant progress in implementing 
religious freedom ideals.
    Fortunately, the annual effort to produce country reports 
on religious freedom provides an excellent vehicle for 
identifying countries of particular opportunity.
    Additionally, IRFA already contains authorization for 
providing positive incentives to encourage other countries to 
improve religious freedom. The act already authorizes State to 
pursue numerous positive incentives. These are described in 
greater detail in my full statement.
    Briefly, the State Department should, one, recognize and 
reward countries making important religious freedom progress; 
two, recognize meritorious or distinguished religious freedom 
service by State employees through performance pay and awards; 
three, link humanitarian, military, and other U.S. aid to 
religious freedom progress; four, link U.S. economic incentives 
to religious freedom progress; and, five, conduct country-
specific consultations to tailor goals and incentives for 
different countries.
    Since authorization for these positive incentives already 
exist under IRFA, my strong recommendation is that Congress use 
its oversight authority to investigate the extent to which 
these positive incentives have already been used by State and 
to encourage State to implement them in the future.
    There is no doubt that many positive steps are being taken, 
but I would recommend that the State Department be urged to 
formulate a strategic plan for more systematic use of such 
positive measures. Ideas from some of the embassies which have 
developed the most effective positive measures should be shared 
systematically with other embassies around the world.
    In summary, instead of emphasizing name-and-shame tactics, 
IRFA should be reoriented to identify and incentivize improved 
performance through greater utilization of positive measures.
    I believe that this positive approach will reinvigorate 
U.S. policy on religious freedom and will help IRFA become a 
much more powerful force to help improve the lives of millions 
of persons who deeply desire religious freedom.
    Thank you.
    Mr. Chaffetz. Thank you.
    [Prepared statement of Mr. Smith follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Chaffetz. Mr. Ogebe. Did I--how do you pronounce your 
last name?
    Mr. Ogebe. Yes. It was the last.
    Mr. Chaffetz. Yes. If you can turn on your microphone, that 
would be great.

                  STATEMENT OF EMMANUEL OGEBE

    Mr. Ogebe. Yes. Mr. Chairman, ranking member, members of 
the committee, thank you very much for allowing me to testify 
today.
    This hearing is a very timely hearing. As you may have 
heard in news, just yesterday Boko Haram bombed a school and 
killed 15 people who were preparing to be teachers.
    Let me start with three sobering statistics. The first is 
that Christians are the most persecuted religion in the world 
today. The second is that more Christians have been killed this 
century than in previous centuries. And the third is that more 
Christians were killed in Northern Nigeria in the year 2012 
than the rest of the world combined.
    Now, one of the things that Boko Haram has done was this 
time last year they used chainsaws to decapitate over 150 
Christians when they mounted a fake roadblock on a highway. 
These are the kinds of atrocities that this group has engaged 
in even before they abducted 300 young girls from a boarding 
school in April.
    With regard to the U.S. Commission of International 
Religious Freedom, it is my thinking that they missed a golden 
opportunity to alert the world to the atrocities and the 
religious genocide that Boko Haram was conducting.
    And what happened was that the USCIRF in its annual report 
on Nigeria last year did not make a recommendation to the State 
Department for Boko Haram to be designated as a foreign 
terrorist organization. This, I think, would have been the 
moment that USCIRF would have lent its voice to a critical 
policy recognition of what this terrorist group was doing.
    I also want to mention the response of the State 
Department. The IRFA Ambassador at the time traveled to 27 
countries in her 29 months in office. And at the time when you 
had this horrendous anti-Christian genocide going on in 
Nigeria, she did not meet with Christian leaders in that 
country.
    And I say this to say that we have a good law, but if we 
have people aggressively implementing existing powers that they 
have, that there are some of these issues that would not need 
to be reformed. They are obviously clear issues that warrant 
reform, but the existing paths are being underutilized.
    I want to point out that the State Department has continued 
to downplay the persecution of Christians in Northern Nigeria, 
and this is a grave concern for us. There is nothing that ISIS 
has done in Iraq in the last two months that they have not done 
in Northern Nigeria in the last 3 years.
    Now, let me say that we are all shocked by what ISIS has 
done in beheading two American journalists, but Boko Haram has 
tried to do that several times. And just last week we heard for 
the first time the name of an American that Boko Haram 
attempted to kill. Her name is Vernice Guthrie. Until this day, 
the State Department has not publicly admitted that Americans 
have been targeted by this horrific terror group.
    I think I want to quickly make the linkage here. The groups 
that terrorize people of other faiths in that country will 
ultimately want to set their sights on bigger targets, and that 
is why we see what is going on now, is that groups like ISIL 
and Boko Haram want to reach America and want to kill 
Americans.
    Let me point out that one of the concerns we have had with 
U.S. response is the effort to downplay the intent of these 
groups. It is what I call the ``see no jihad, hear no jihad, 
say no jihad'' strategy.
    And we heard in Iraq, as in Nigeria, ``Oh, what you need to 
do is create a more inclusive government. Violent jihadist 
groups are not about inclusive governments. They are about 
exclusive governments. They want to rule exclusively by 
themselves.
    I want to take a moment to say that I honestly believe that 
we need to fund USCIRF better. I believe that USCIRF needs to 
use its powers more effectively.
    I want to submit my testimony for the record. But before I 
hand over, I do want to pay tribute to a young girl who was 
killed by Boko Haram.
    I conducted a 1-month investigation after we found out that 
Boko Haram had started using females as suicide bombers, and it 
was my sad duty this week to notify members of the Chibok 
community that Boko Haram that abducted about 300 Christian 
schoolgirls from their school in Northern Nigeria has used one 
of them and blew her up in a school and killed several people.
    As a tribute to this girl, I want to mention the words of a 
song that she is known for by people in her class. And what she 
said was, ``We have come to the end of the world now. We have 
to stand firm and be strong in the Lord because we are now in a 
bad situation, and there's milk and honey in the place where I 
am going. No matter the condition, I will not go back. The Lord 
is my refuge. We are now in a bad situation. We better turn to 
God now to enjoin him on the last day.''
    And Boko Haram strapped this girl with explosives. We do 
not know if she was aware what was on her body, but she was 
blown up and killed in Northern Nigeria a few weeks ago.
    Thank you.
    Mr. Chaffetz. Thank you.
    [Prepared statement of Mr. Ogebe follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                    STATEMENT OF TAD STAHNKE

    Mr. Stahnke. Thank you, Mr Chairman, Mr. Tierney, and 
members of the subcommittee for the opportunity to discuss this 
important issue, international religious freedom.
    Religious freedom's a cornerstone of secure and thriving 
societies. Denying religious freedom is associated with 
instability, rights abuses, and violent extremism. The rising 
tide of violence and religious intolerance and restrictions on 
religious freedom is clearly an ongoing threat to U.S. national 
security.
    The recent events in Iraq, Syria, Nigeria, Pakistan, and 
Egypt all underscore the urgency of formulating U.S. national 
security policies that promote and protect religious freedom 
and related human rights as part of the strategy to secure U.S. 
national interests.
    In the last year, there's been an alarming rise in deadly 
violence targeting religious communities, ISIS and Boko Haram 
seizing and holding territory, committing horrendous human 
rights abuses.
    It is also very troubling how effective these groups have 
been in using mass and social media to get out their message 
and to recruit followers. Burma, Pakistan, Egypt, all places 
where we continue to see way--too much in the way of violence 
targeting religious minorities.
    Not at the same scale of violence, but also troubling is 
growing anti-Semitic and other hate violence in Europe as neo-
Fascist, anti-Semitic political parties have gained electoral 
strength throughout the region, particularly in Hungary and in 
Greece.
    My written testimony covers these situations. Let me make 
three general points.
    First, although non-state actors perpetrate much of the 
violence, failures of governments play an enormous role. 
Governments often create or fail to confront the conditions 
that give rise to violence. There's a direct link between ISIS 
success and the Iraqi Government failures on good governance 
and addressing the grievances of the Sunni population.
    Second, many of the situations we are discussing have 
deteriorated because of the failure of governments to 
adequately protect human rights and the rule of law and more 
effectively confront discrimination and hatred.
    Support for ISIS and Boko Haram has been fueled by human 
rights violations by the Iraqi and Nigerian security services 
and their paramilitary supporters. These aren't rogue 
violations, but seemingly deliberate, abusive, and 
counterproductive counterterrorism and security policies.
    Third, the United States has invested a tremendous amount 
of money, prestige and, in some cases, blood in the success of 
these countries to become more stable, to move in a more 
democratic direction more tied to the rule of law.
    So the need is pressing. And what needs to be done?
    First of all, as several of us have said, the Senate should 
confirm Rabbi Saperstein to be the Ambassador-at-Large. It is 
the immediate step that should be taken. I urge you to--urge 
your colleagues in the Senate to do so.
    Second, the United States needs country-specific strategies 
to better integrate the promotion of religious freedom and 
other human rights into its effort to confront each of these 
national security challenges.
    Developing and investing in these strategies is a way to 
prevent security situations in countries that could eventually 
deteriorate to the point where we would even contemplate U.S. 
military action.
    The elements of this type of strategy include promoting a 
more rights-respecting approach by foreign governments to 
counterterrorism; stopping U.S. allies like Saudi Arabia and 
Qatar from funding religious extremism beyond their borders; 
where there's political will, provide assistance to help 
countries better integrate the security services with members 
of religious minorities; and promote better law enforcement 
response to violence--impunity for any act of religiously 
motivated violence is a cancer that can spread out of control--
countering extremist propaganda and hatred; and, also, 
assisting IDPs, refugees, and asylum seekers fleeing religious 
persecution.
    Now, in order to implement these strategies, the White 
House and the State Department needs to better integrate the 
Ambassador-at-Large into the work of national security, 
conflict prevention, counterterrorism, countering violent 
extremism, and democracy promotion.
    Dr. Farr and I saw the same line in Rabbi Saperstein's 
testimony, and I will highlight that, too. It is extremely 
important. But how do you do that? And let me end with a couple 
of specific recommendations.
    There's a new national security strategy in the works, and 
it should include a clear statement that it is U.S. policy to 
advance international religious freedom and related human 
rights as part of the strategy to promote stability in foreign 
countries and combat terrorism.
    Second, the President should create a permanent interagency 
policy committee on religion, human rights, and national 
security co-chaired by a deputy national security advisor and 
the Ambassador-at-Large for International Religious Freedom. 
Give it resources. Give it a mandate to coordinate policies 
across the agencies, as I think we have all been discussing.
    Regardless of where the IRFA Ambassador sits in the 
bureaucracy, the Secretary of State should ensure that the 
Ambassador has regular and consistent access to him, to senior 
State Department-level meetings, and fully integrated into the 
broader policy discussions.
    Finally, Under Secretary Sewall, who I know is going to 
talk later, should create within her purview a unit that could 
be deployed to the field to assess the risk of systemic 
violence targeting religious communities and respond--make 
recommendations and respond using the tools that she has within 
her shop.
    And, finally, the President should send Vice President 
Biden to represent the United States at the upcoming high-level 
OSCE Berlin conference on anti-Semitism, and I am hoping that 
Congress also will send a high-level delegation to that 
important meeting.
    Thank you very much.
    Mr. Chaffetz. Thank you.
    [Prepared Statement of Mr. Stahnke follows:]
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Chaffetz. Thank all of you for all your testimony. You 
have--your fuller remarks, if there are some, obviously will be 
entered into the record.
    I would also just ask that, if you have very specific 
recommendations or want to modify those at any time, please 
send those forward as we digest--we are not only the Oversight 
Committee, we are supposed to be the Government Reform 
Committee. And certainly there are things that the law can do 
to help catch up with what we are supposed to do.
    Now I would like to recognize the gentleman from South 
Carolina who cares passionately about these issues, Mr. Gowdy.
    Mr. Gowdy. I want to thank the chairman, and I want to 
thank all the panelists.
    I want to just single out the one that I know the best, Dr. 
Farr, who has done a lot, Chairman Chaffetz, to help me 
understand the issues, and our mutual friend, John Hutchinson 
from South Caroline.
    Dr. Farr, I just have one question.
    And then I want to yield my time to the gentleman from Utah 
who has worked so assiduously on this issue.
    You mention the Senate's heretofore failure to confirm the 
Ambassador-at-Large. Among the mysteries of the world, a Senate 
confirmation process probably ranks in the top three, at least 
to me. So I don't--I don't know what the holdup would be.
    Is there--one of your panelists mentioned our colleagues in 
the Senate and--perhaps putting pressure on them, which 
traditionally does not work. What can we do? Is there a holdup 
that has been identified or is it just the normal Senate 
schedule? And I'll let you answer that.
    And then, Mr. Chaffetz, I would give the rest of my time to 
you.
    Mr. Farr. Thank you for that, Mr. Gowdy.
    Others on the panel may know better than I, but I 
understand that the committee was to vote on his nomination 
today. It may be happening as we speak. The problem is that the 
Senate is going to be in recess.
    So if there's a way for the Senate to--which I know you 
have no control over--to confirm him before they go on recess, 
before the Congress does, it would be good, because he could 
get into--into the job. But I do think at this point it is a 
procedural matter rather than any opposition.
    Mr. Chaffetz. I thank the gentleman from South Carolina.
    If you were going to take this job on--you have all offered 
recommendations that you can do. But what, realistically, can 
that position actually do, given its status, given its 
placement?
    I know there are some recommendations on the elevation and 
who they report to, different committees that we can--but if 
you had an objective for this person in the first 100 days, the 
first three, what would that be? What would be on that person's 
list? What can they realistically actually do and accomplish?
    And, again, I think you all know this. You have all stated 
it. We just haven't seen the numbers and the meter move in the 
right direction. In fact, it is going in the wrong direction.
    Yes.
    Ms. Lantos Swett. Well, I will be happy to take a crack at 
that.
    I think, to some degree, there needs to be an effort to 
change the culture at the State Department. For many years 
there was something that was known almost as--I think it was 
called the secularization thesis, that as societies became more 
modern, they would inevitably become more secular and that 
religion was not really a terribly relevant factor or would not 
continue to be a terribly relevant factor in the lives of large 
numbers of people around the world. And, if anything, the 
history of the last 25 years has undermined that--that now 
somewhat discredited secularization thesis.
    And I do think that Rabbi Saperstein will face a challenge 
of sort of confronting a culture at the State Department that 
has tended to sideline these concerns, has tended to view the 
business of State as being, of course, maintaining, to the 
extent possible, positive relations between the United States 
and other countries, and when there are problems, working at 
other levels and on other--on other areas of focus.
    And so I--you know, I think it is critically important that 
the next Ambassador-at-Large find a way to have that direct 
access to the Secretary and, indeed, to the President. You 
know, the terms of the statute say that the Ambassador-at-Large 
is the principal advisor to the President and the Secretary of 
State on matters relating to international religious freedom.
    We no longer need to make the case. The world is in flames. 
It is on fire with religious freedom atrocities, and those 
atrocities have direct and terrifying implications for our 
national security.
    So I would say try not to be co-opted by the highly 
bureaucratic nature of the State Department. Battle hard for 
that ability to, in fact, fulfill the statutory, you know, 
claim to be that principal advisor.
    And, finally, I would say--and I don't underestimate the 
value of this. And I happened to be with Rabbi Saperstein 
yesterday at a powerful, wonderful event remembering and 
honoring Anne Frank, the remarkable young woman who died in the 
Holocaust, the Dutch woman.
    He spoke so powerfully, so eloquently, in such an inspiring 
fashion, and I do think that we should not underestimate the 
power and the ability of someone of great passion, great 
commitment, and great dedication to this issue to change the 
narrative and to--to draw more focus to it.
    Mr. Chaffetz. Thank you.
    And my guess is you all have input on this. We can either 
come back to that or, again, submit it to the committee.
    We have a second panel, and we are going to also have a 
second series of votes. So we have got try to balance that 
time.
    And I thank the gentleman from South Carolina, Mr. Gowdy.
    Now recognize the gentlewoman from Illinois for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    One of the central tools of the International Religious 
Freedom Act is the designation of countries of particular 
concern, or CPCs, who are particularly severe violators of 
religious freedom.
    However, the CPC mechanism has not always been 
consistently--and I understand--used consistently. And I 
understand that the State Department has interpreted this 
statute to not require annual designations.
    For example, the Bush Administration did not make any CPC 
designation after 2006, and the current administration has only 
made two designations to far.
    Dr. Lantos Swett, is that correct?
    Ms. Lantos Swett. Yes. And we--if you are going where I 
think you are going, we very much would encourage them to make 
annual CPC designations, as contemplated in the statute.
    Ms. Kelly. That is where I was going.
    And can you tell me why.
    Ms. Lantos Swett. Well, you know, we don't want the CPC 
list to be a frozen sort of dead document that just sits on a 
shelf. The process of evaluating on an annual basis whether a 
country is progressing in the right direction, is regressing, 
is--in and of itself, it brings pressure to bear on those 
countries when they know that that process is dynamic. It also 
gives you a much more dynamic opportunity to recognize when 
progress has been made.
    The worst thing that can happen is to create a list, stick 
it on a shelf, and nobody thinks about it for 4 or 5 years. We 
want State thinking about religious freedom because it really 
matters to our national security and our foreign policy. So it 
is the dynamism and the annual process that brings attention to 
bear on the good guys and those making progress.
    Ms. Kelly. Now, the other issue seems to be disagreement on 
what countries should be designated between--you know, with the 
International Religious Freedom Act, the State Department, and 
the U.S. Commission on International Religious Freedom.
    How does the Commission determine which countries are 
engaged in particularly severe violations?
    Ms. Lantos Swett. Well, it is a very detailed process 
involving a lot of research, drawing on information--testimony 
and information that we get from a wide variety of sources.
    Of course, to some degree, we rely on our significant State 
Department interlocutors in the various countries, religious 
communities, NGOs, outside organizations that do evaluations. 
We take trips to those countries to make our own independent 
assessments.
    I hope I am not going to sound too self-congratulatory, but 
I would say that the USCIRF CPC list is the gold standard. And 
I recognize we have the luxury of not having to consider the 
full range of concerns that our State Department has to deal 
with.
    So, you know, I think we need to cut them a little slack. 
They have to balance things we don't at USCIRF. We have one 
focus, which is international religious freedom.
    But for that reason, I do think our list is the gold 
standard. I think, if a country makes it on to our recommended 
list, it has met the statutory requirements. And sometimes 
State can't find their way to getting where we get to. But I 
would commend that people consider the USCIRF list to be a 
very, very good list.
    Ms. Kelly. What reasons have they given not to go along 
with your recommendations?
    Ms. Lantos Swett. Oh, that is a good question.
    You know, I don't want to put words into anybody's mouth; 
and, so, I want to be very circumspect in answering that.
    Certainly their formal responses would indicate that they 
are not sure that the--that the bar has been crossed in a 
statutory sense. But I would give as an example Pakistan, which 
is a country that I think most people--looking at the statutory 
language, looking at the reality of, you know, over 100 people 
in prison, many of them on death row for violations of 
outrageous blasphemy codes.
    Look at the persecution of the Ahmadiyya Muslims in 
Pakistan. Look at the threats and the murder of people like 
Shahbaz Bhatti, the only Christian member of the Pakistani 
Government before he was murdered and others would say this is 
a country that has severe religious freedom abuses going on and 
either perpetrated or tolerated or a situation of impunity by 
the government.
    Tom, I know you have something to add there.
    Mr. Farr. Well, now--sorry. I am sorry. I didn't mean to 
interrupt this----
    Ms. Lantos Swett. Oh, no.
    Mr. Farr. I didn't want to say something about the CPC. I 
wanted to just say a word about the issue of how the Ambassador 
could be effective, if I might. I will be very brief.
    My first recommendation to the committee, which was the 
first recommendation last year, is that the IRFA be amended to 
require the Ambassador-at-Large to report to the Secretary of 
State just as the Ambassador-at-Large for others, such as 
women's issues, do.
    You could put the Pope in this position, Mr. Chairman, and 
buried in the bureaucracy as he is, he would not be effective. 
It is because of State Department understands this issue as a 
junior position. Foreign governments--it is not rocket 
science--understand it is not a priority.
    The Congress could make this happen. The State Department 
is not going to do it. They are not going to do it with, 
hopefully, Ambassador Saperstein.
    Ms. Kelly. Can I just ask one more?
    How effective have the CPC designations and resulting 
actions been in actually changing the behavior of the offending 
countries?
    Ms. Lantos Swett. Well, I don't think I can be quite as 
self-congratulatory in response to that question. Part of the 
reason is, as has been mentioned by a number of us here on the 
panel, neither--you know, none of the administrations since the 
creation of IRFA have adequately utilized the tools that are at 
their disposal.
    When sanctions are imposed pursuant to a CPC designation, 
they are always what we call double-hatted. So there is no 
specific penalty associated to the designation as a CPC.
    Mr. Smith suggested that we also need to look for countries 
of particular opportunity. I think that is a great idea. I 
think there needs to be--I am a believer in shame and blame. 
You know, look. I am a Jewish mother. You know, I--daughter of 
Holocaust survivors. So we belive in the power of guilt. We 
really do. And it is a highly sophisticated art within that 
tradition, if I may say so with tongue firmly in cheek.
    But--so I do believe in shame and blame, but I don't think 
it is enough by itself. So I think we need to look for positive 
opportunities. But I would say this. When it comes to the 
ineffectiveness of change as a result of CPC designations, 
there is a role for sanctions.
    And if I can quote the great Catholic writer G.K. 
Chesterton, I think he once said, speaking of Christianity, 
that it is not that it has been tried and found wanting, but it 
has been found hard and not tried. And I think that that also 
sort of has some relevance to whether or not we could bring 
about more change if we had more robust and particular 
sanctions associated with CPC designations.
    Ms. Kelly. Thank you for the time.
    Mr. Chaffetz. I think Mr. Stahnke wanted to add something 
briefly, if we could, please.
    Mr. Stahnke. Yes. Very briefly.
    I think it is hard to point to success stemming from CPC 
designation or actions that are taken. I would suggest take a 
different approach. Right?
    The administration is engaged on ISIS, on Boko Haram, on 
Burma. These countries are ones where Rabbi Saperstein, as 
Ambassador-at-Large, could be put at the table of the serious 
policy discussions.
    He could go there, and he could come back and lay out a 
strategy for how to reverse the conditions that are plaguing 
and producing these abuses. And I think that is something that 
is achievable in a short term where there is already action 
taking place.
    Thank you very much.
    Mr. Chaffetz. Thank you.
    We are way over the--over the time. Let me go to Mr. 
Bentivolio. You will have a chance to come back here.
    The gentleman from Michigan, Mr. Bentivolio, is now 
recognized.
    Mr. Bentivolio. Thank you very much, Mr. Chairman.
    And thank you all for coming here today on this very 
important issue.
    America is waking up to the atrocities in the Middle East. 
I have spoken 13 times on the floor of Congress about religious 
freedom issues in the Middle East as well as China and other 
places of the world.
    And my office has been reviewing some of the standards, I 
think, that the State Department has for how they rate 
countries as far as the religious freedom. Are you familiar 
with that? And I think you talked about that earlier. Can you 
explain that in more detail?
    Anybody want to answer that question, what that rating 
system is all about in the State Department, how they rate 
countries based on religion freedoms?
    Mr. Farr. I don't think they do that, sir. I think what 
they do is name the bad guys. That's the Countries of 
Particular Concern list.
    Mr. Bentivolio. Okay. So there is really no----
    Mr. Farr. There is no ranking.
    Mr. Bentivolio. --ranking, no matrix to use for how we--you 
know, countries that are promoting religious freedom versus not 
promoting or the opposite?
    Mr. Farr. The Pew Research Center produces an annual report 
that does, in effect, rank these countries and gives them 
scores.
    Mr. Bentivolio. And the reason I am asking this is because, 
in order to promote religious freedom, you know, sometimes we 
ignore those atrocities taking place, and yet the United States 
Government will still write them a foreign-aid check for some 
reason or another, usually in the form of tanks and airplanes 
and AK-47s or similar.
    So how do you feel about rating these countries based on 
their matrix of religious freedom and foreign aid?
    I notice, Mr. Smith, you have a list of--excuse me a 
minute--yeah, ``As specified in the act, negative sanctions 
include,'' but I don't see not getting a check from the United 
States Government. Do you think that would have an effect one 
way or the other?
    Mr. Smith. Yes, of course it would. And, in fact, I am not 
sure if that was totally understood. My testimony is that it 
should be linked, that there should be a linkage between U.S. 
aid, military aid, and religious freedom, which is already 
recommended in the act.
    Mr. Bentivolio. In the act.
    Mr. Smith. Yes.
    Mr. Bentivolio. But we are not enforcing it.
    Mr. Smith. That is correct.
    Mr. Bentivolio. That is what you are telling me.
    Mr. Smith. That is exactly right.
    And if I could just say, while the focus should be on 
countries of particular concern because of the horrendous 
religious freedom records that they have, most countries are 
not CPCs. And so my testimony is that we should also focus on 
those countries that are not the worst offenders because those 
are the ones that legitimately want to improve their records 
and are most susceptible to incentives and to persuasion.
    When we think of the CPC countries, where we are really 
talking about criminal activity and other forms of abuse, they 
are not very responsive. And that is why there is a problem. 
And if the goal of IRFA is to actually make a difference, we 
need to also focus on those countries most susceptible to 
positive incentives and persuasion.
    Mr. Bentivolio. Very good.
    So how do you think we should handle the present problem we 
have in the Middle East with the persecution of Christians, 
Coptics, and other minority religions?
    Mr. Smith. Well, that is obviously a tremendous tragedy, 
and there has been a lot of discussion over the past couple of 
years about how it is increasing.
    What needs to be done, in my view, is there needs to be a 
strategy that is put into place by State. And it is not a 
matter of simply giving some speeches or even writing an 
effective report that explains the problem. There needs to be a 
strategy for success. And that includes the type of efforts 
that will be made, the linking of U.S. aid, U.S. incentives of 
various kinds--economic incentives can be linked to religious 
freedom--and identifying the people who are in charge of 
religious policy in those countries, getting to know them and 
trying to work with them.
    Mr. Bentivolio. Do you think there is any hope in restoring 
the homes in the communities that the Christians were forced to 
leave after living there for thousands of years? Do you think 
there is any chance of them ever going back with the present 
state of affairs?
    Mr. Smith. Well, we have to always hope that that can be 
the case.
    Mr. Bentivolio. Hope.
    Mr. Smith. And it may take time, but quick action is needed 
now to prevent further erosion.
    Mr. Bentivolio. What do you mean by ``quick action''? Can 
you be more detailed?
    Mr. Smith. Well, the strategy that I am referring to----
    Mr. Bentivolio. Okay. A strategy.
    Mr. Smith. Yes.
    Mr. Bentivolio. But you are not really outlining a specific 
strategy. And I don't mean to attack you on this because there 
is a lot of people here in Washington that use that word, 
``strategy,'' but I haven't seen the details of that strategy.
    Did you want to add something?
    Excuse me. Thank you very much, Mr. Smith.
    Mr. Smith. You bet.
    Mr. Bentivolio. Appreciate it.
    Ms. Lantos Swett. Just very specifically to your question 
about whether or not these persecuted communities that have 
fled could be resettled, we have had a number of briefings at 
USCIRF from representatives of those communities. And I can 
convey to you that what they said to us is: We cannot go back. 
After what happened to us, after the way we saw our neighbors, 
neighbors going back generation upon generation, either turn 
against us or fail to defend us in any meaningful way, we 
cannot rebuild our lives there.
    Which is why I think one thing we need to be prepared to do 
as a government is raise the refugee resettlement quotas for 
some of these horribly targeted communities in the region of, 
you know, Iraq, in particular, the area that ISIL has taken 
over in Iraq.
    So members of the communities are not feeling optimistic 
about the idea of their lives resuming there.
    Mr. Bentivolio. Just one more quick question?
    Mr. Chaffetz. We have a second panel, and we have the vote 
coming up.
    Mr. Bentivolio. Thank you very much.
    Mr. Chaffetz. I thank the gentleman.
    We will now recognize the gentlewoman from New York, Ms. 
Maloney, for 5 minutes.
    Mrs. Maloney. Thank you.
    And I would like to welcome all of the panelists and 
particularly my good friend Dr. Lantos Swett, whom I first met 
as the daughter of my former colleague and the wife of my 
former colleague and a great candidate herself.
    So it is good to see you still working hard on issues, and 
wonderful to see you again.
    The International Religious Freedom Act is the main 
legislative vehicle through which Congress has authorized the 
administration to respond to gross violations of religious 
freedom. But in light of the sharp rise of religious 
persecution, we should stop and ask how well the act is 
equipped to deal with crises around the world and what changes 
Congress can make to do it better.
    And I would like Dr. Lantos Swett to answer that and 
elaborate on what you actually wrote about in your testimony 
and in your conclusion that IRFA's tools are, quote, ``almost 
irrelevant'' in situations like Syria.
    I would like to add that I went to the grave of Thomas 
Jefferson, and, if I recall, on his headstone is not ``author 
of the Declaration of Independence,'' not ``President,'' not 
this or that, but what he chose to put on his headstone was 
``the author of the Religious Freedom Act''--a basic, basic 
belief in our country. And I really am very disturbed to see 
the persecution of religion around the world that we have seen 
particularly recently against Christians.
    So I look forward to hearing your statement, Dr. Lantos 
Swett.
    Ms. Lantos Swett. Thank you so much.
    We have made a number of recommendations, but I do think 
probably the single most significant thing that could be done 
to make IRFA a more effective piece of legislation, make USCIRF 
and the IRFA office in the State Department more effective 
would, in fact, be for our government at the highest levels to 
prioritize this cause.
    And I will say that I do see a shifting attitude. I think 
it is becoming increasingly apparent to people at the highest 
levels of our government that, if we don't get this piece 
right, we will not be able to solve our most intractable 
foreign policy and security challenges. If you overlay the list 
of Countries of Particular Concern with the list of countries 
of particular national security threat to the United States, it 
is shocking how closely those two lists mesh, for the most 
part.
    One thing that I think is already contemplated in IRFA that 
has not happened--and I think another member of the panel 
referred to this--is it calls for, for example, a director-
level position at the National Security Council who could serve 
as the special advisor on the National Security Council on 
religious freedom issues.
    I think my most passionate argument would be that people 
need to stop thinking about religious freedom as a nice idea, 
something that reflects our values, something that it would 
make us feel good if people could, you know, sort of, practice 
their beliefs more freely in other parts of the world. When you 
have societies that repress, oppress, persecute on the basis of 
sectarianism and religion, you create the seedbed for 
extremism, for violence, for instability, and, ultimately, for 
the export of terrorism. We really have got to get this right.
    And I am so glad you brought that up about Jefferson 
because I think that was our secret sauce as a country. That 
was the piece we got right that was revolutionary at the time, 
unheard of in human history, this notion that the government 
shall make no law respecting an establishment of religion nor 
denying the free exercise thereof, this brilliant, simple 
formulation--protecting the right of freedom of religion and 
separating it from being intertwined with government. That is 
the basic deal right there, and it made all the difference in 
the way we developed as a nation.
    So we need higher-level engagement, we need this to become 
a priority at the State Department on the part of the 
administration and in the Congress. IRFA--there are things we 
can change there, but there is no magic bullet there. The magic 
bullet lies in raising its priority.
    Mrs. Maloney. But that is a hard thing to do. You have to 
almost put it into the structure.
    And I will join you and others in writing a letter to the 
State Department or the President that this position on the 
Security Council should be filled.
    Ms. Lantos Swett. That would be great.
    Mrs. Maloney. But what other things can we do to 
institutionalize this? It is one thing to say, raise the 
priority, but we know what government is like. You are under 
tremendous pressures, usually understaffed, and so you go to 
what you have to do. So you almost have to put a structure in 
place.
    What about special envoys? We use that all the time in 
international affairs, maybe special envoys to special regions 
on particular problems as we see it. If anybody would like to--
--
    Ms. Lantos Swett. I am actually going to defer to Dr. Farr, 
who I often refer to as my tutor on religious freedom and 
really very knowledgeable----
    Mrs. Maloney. My time is up now, so I request the chairman 
let him respond.
    Mr. Farr. Very, very briefly.
    Two things: We don't need a special envoy. We have an 
ambassador-at-large. Nobody is in the position. Get it filled, 
and make this position report to the Secretary of State like 
other ambassadors-at-large.
    Secondly, I recommend in my testimony a Presidential policy 
directive on religious freedom and national security. The 
reality is we have nothing in our religious freedom policy to 
respond to what is going on in the Middle East now--nothing 
except speeches, words, and reports, in response to your 
question.
    We need a strategy that has action as part of it, but here 
I am not talking about just talking about strategies. A 
Presidential directive to develop a strategy on religious 
freedom and national security, that will put us in a position 
to do something.
    Mr. Chaffetz. Thank you.
    I am now going to recognize myself for 5 minutes.
    I want to go to Mr. Ogebe, who--I really want to talk about 
what is going on in Nigeria and Boko Haram.
    There was a lot of criticism for Secretary Clinton, for the 
State Department as a whole for not designating them as a 
foreign terrorist organization. From your perspective, why did 
that take so long?
    But then, once it was designated, what changed? Did it 
actually even make a difference or move the meter? And is it 
getting better, worse, or is it just the same?
    Mr. Ogebe. Yes. Thank you very much, Mr. Chairman.
    Now, we, to this date, do not understand why the State 
Department dragged its feet with the FTO designation. We do 
know that there were individuals, 20 professors, that wrote to 
the State Department and said, don't do it. We did write to 
them and provide briefs and facts showing why this should be 
done.
    One of the really difficult aspects for us was the fact 
that the State Department would not admit that Americans had 
been attacked by Boko Haram.
    Ultimately, they did the designation. But we do not know if 
they have had the political will to implement the sanctions 
required. We don't know if they just did it to just wish us 
away.
    I can give you a practical illustration of some of the 
things that have emerged which an FTO designation 
implementation would have showed. For example, there are 
reports that Turkish Airlines has been flying arms into Nigeria 
surreptitiously. Now, if we were aggressively tracking the flow 
of arms and finances, that is an organization that by now the 
State Department should have imposed sanctions on.
    So we do feel that the situation has worsened. Just this 
week, one Catholic diocese is reporting they have lost 2,500 
members. That is one church losing the equivalent of 9/11--one 
diocese.
    So the situation is getting much worse, and we are now 
thinking there needs to be a look at the Leahy amendment to see 
how military assistance can be provided. Because Nigeria is a 
country that is too big to fail, to use those terms.
    Mr. Chaffetz. So, to be clear, what would you have the 
United States do, from your perspective? What would you want 
them to do?
    Mr. Ogebe. Well, one of the first things would be to stop 
the denial. It is hard to believe that till this day officials 
continue to deny the serious killings of Christians that is 
going on. But I honestly think that if there is military 
assistance--last week, a top U.S. official said, you know, we 
need to end the denial and the pride. Nigeria is losing 
territory to these people. If she was genuine in her comments, 
then we need to look at military assistance so that these 
people can be stopped. They have taken over six cities in the 
last couple of weeks, and that is not a good sign for the 
entire subregion.
    So we do need to look at military assistance. If the 
Ambassador is appointed, that is one of the things that an 
ambassador can hit the ground running. He can intervene, he can 
engage with the Nigerian Government with the refugee situation 
in Cameroon and so on and so forth.
    Mr. Chaffetz. I thank you.
    Unless there are some other pressing questions, what I 
would like to do is thank this panel for their participation. I 
would have preferred to have just one panel, quite frankly, but 
we do have the person from the State Department, and we would 
like her to have time to testify.
    We would invite you to stay here and listen if you would 
like. But if it is okay with the committee, unless there is an 
objection, the committee is going to stand in recess for just a 
couple of minutes while we change the panel there.
    And we thank you so much for your dedication and commitment 
to this issue and your passion. And it is a very important 
issue, and we look forward to the continued dialogue with you.
    We will stand in recess for just a few minutes.
    [Recess.]
    Mr. Chaffetz.The committee will come to order.
    We are honored to have the Honorable Sarah Sewall. She is 
the Under Secretary for Civilian Security, Democracy, and Human 
Rights at the Department of State.
    And we appreciate you being here.
    Pursuant to committee rules, all witnesses will be sworn 
before they testify. So if you would please rise and raise your 
right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Ms. Sewall. I do.
    Mr. Chaffetz. Thank you.
    Let the record reflect the witness answered in the 
affirmative.
    We again appreciate you being here. We are pretty generous 
on the timing of your verbal comments. If you have additional 
comments and testimony, I believe, which is a bit revised from 
what you first gave us, that is perfectly acceptable. That is 
fine, in this case. We will, obviously, make all of your 
written comments part of the record. And if you want to add 
something after the fact, we are happy to do that, as well.
    So we will now recognize you for 5 minutes. If you would 
just bring that microphone maybe straight there and make sure 
it is on. And you may proceed.

    STATEMENT OF THE HON. SARAH SEWALL, UNDER SECRETARY FOR 
CIVILIAN SECURITY, DEMOCRACY, AND HUMAN RIGHTS, U.S. DEPARTMENT 
                            OF STATE

    Ms. Sewall. Thank you, Mr. Chairman.
    Chairman Chaffetz, Ranking Member Tierney--although I see 
he is not here, but I wish him a happy birthday in absentia--
and members of the committee, thanks for the opportunity to 
appear before you today to provide the details on how the Obama 
administration is promoting religious freedom worldwide.
    Today's hearing couldn't come at a more appropriate time 
because in too many corners of the globe religion is perverted 
by cynical forces as a tool of subjugation to justify violence, 
to expand power, and to advance parochial political agendas. 
There is no greater example of this terrifying reality than the 
metastasizing growth of the Islamic State of Iraq and the 
Levant, ISIL, and the terrorist group in Iraq and Syria.
    Countering violent extremism and promoting tolerance and 
human rights is a policy priority that cuts across many of the 
bureaus I lead as Under Secretary for Civilian Security, 
Democracy, and Human Rights and, indeed, the entire State 
Department. The most basic rights of freedom of expression in 
thought, conscious, and religion are at the core of our work, 
whether we are countering terrorism or preventing atrocities.
    The United States Government is appalled by the horrendous 
violence and violations of religious freedom and other rights 
in Iraq and Syria. As the President told the Nation last 
Wednesday, we cannot allow these communities to be driven from 
their ancient homelands.
    President Obama recognized the alarming nature of the 
violence by ISIL against the Yazidi community last month, 
saying that ISIL has called for the systematic destruction of 
the entire Yazidi people, which would constitute genocide.
    This threat, combined with the request from the Iraqi 
Government, prompted President Obama to authorize a 
humanitarian effort, reinforced by targeted air strikes, to 
help save those trapped on Mount Sinjar. Again, in Amirli, we 
airdropped food and water to Shia Turkmen, and we provided air 
support for Iraqi forces that broke ISIL's siege and prevented 
a humanitarian catastrophe. Going forward, the coalition 
mission and our actions in Iraq will continue to help protect 
vulnerable communities.
    Mr. Chairman, our efforts to combat ISIL and ensure the 
long-term safety of the religious communities now so threatened 
in the Middle East are led by the administration's abiding 
commitment to advance freedom of religion and protect people at 
risk due to their faith.
    Mindful that we can never do enough, yet focused on how we 
can do more, this administration is seized by the pursuit of 
religious freedom as a central foreign policy and national 
security priority. In remarks at the National Prayer Breakfast 
this year, President Obama explained why, saying, ``History 
shows that nations that uphold the rights of their people, 
including the freedom of religion, are ultimately more just and 
more peaceful and more successful. Nations that do not uphold 
these rights sow the bitter seeds of instability and violence 
and extremism. So freedom of religion matters to our national 
security.''
    The President's commitment has been matched by that of 
Secretary of State John Kerry. And just last week in Baghdad, 
the Secretary urged the new Iraqi Government to protect and 
integrate members of religious minorities, saying that we are 
committed to working with the new government as long as they 
are committed to diversity, to inclusivity, as long as they are 
going to protect minorities in Iraq.
    My team, including the International Religious Freedom, 
IRF, office, has been directly engaged with those most targeted 
by the violence waged by ISIL. I have met with representatives 
of the Yazidi community in the United States a week after the 
Mount Sinjar attack, and just last week, I met again within an 
Iraqi human rights group advocating for religious minorities.
    The State Department is, in fact, in regular communication 
with representatives of these communities in Iraq and in the 
United States. And that interchange has been vital in 
protecting vulnerable groups and getting humanitarian 
assistance directly to displaced community members.
    The Bureau of Population, Refugees, and Migration, PRM, is 
working to ensure humanitarian relief is reaching those in 
need. And it has provided $171.8 million thus far in fiscal 
year 2014 for aid to Iraqis both inside Iraq and in the region.
    ISIL's recent assault on northern and western Iraq is an 
extension of its brutal acts in Syria, where there have been 
reports of mass killings in Christian and Alawite villages, 
forced conversion at gunpoint, beheadings, kidnappings, and 
extreme abuse of women from all communities, including 
communities comprised of their fellow Sunni Muslims.
    In all of our engagements with Syrians, from Secretary 
Kerry down to the working level, we have consistently called 
upon all opposition parties to respect the rights of all 
Syrians, including the right to religious freedom, and to 
pursue a government and legal framework that protects these 
rights. Despite the challenges in realizing these goals, we 
have been heartened that the Syrian opposition coalition we 
have recognized has repeatedly and publicly denounced any 
affronts to religious freedom.
    Sadly, religious freedom violations are not limited to the 
dire situation in Iraq and Syria. In nearly every region of the 
world, we can see limitations on the freedom of--on the 
exercise of religious freedom. In Pakistan, numerous religious 
minorities face high levels of violence and discrimination. 
Turkey refuses to recognize the Alevis' houses of worship 
despite their 20 percent percentage of the population. And the 
Greek Orthodox Ecumenical Patriarch continues to face 
restrictions, as well.
    Pew Forum statistics highlight that over 80 percent of the 
world's population claims a religion, while over 70 percent of 
the global population lives in areas in which religious freedom 
is restricted.
    These statistics underscore the momentous step that the 
Congress took in 1998 when it passed landmark legislation, the 
International Religious Freedom Act, which sent a clear and 
strong signal that the universal right of religious freedom 
would be a priority of the United States' foreign policy. We 
are deeply committed the our obligations under the IRF Act. We 
acknowledge the significant contributions toward implementation 
of the act that have been made by the United States Commission 
on International Religious Freedom.
    On July 28th, Secretary Kerry released the 2013 
International Religious Freedom Report, which describes the 
status of religious freedom in every corner of the globe. And, 
at that time, he also announced his designations for Countries 
of Particular Concern. This valuable tool highlights the most 
egregious violations, and we use this tool, among the many 
others outlined in the act, to advance international religious 
freedom. And we press governments to stop violations when they 
happen, wherever they happen, and not only in countries of 
particular concern.
    Religious freedom, as well as the broader spectrum of human 
rights, remains a priority in U.S. foreign policy, and it is 
related more broadly to questions of governance and stability. 
Around the globe, in countries emerging from conflict or 
undergoing great change, like Burma and the Central African 
Republic, we find that fostering respect for religious freedom 
and a culture of tolerance is central to the creation of a just 
and lasting peace and a stable government. And this is a trend, 
I think, to which earlier witnesses testified.
    As created by the 1998 IRF Act, the Ambassador-at-Large for 
International Religious Freedom serves as the principal advisor 
to the Secretary of State and President on religious freedom. 
And, just last week, the Senate Foreign Relations Committee 
held a hearing to consider the nomination of Rabbi David 
Saperstein. I understand that Rabbi Saperstein has now been 
voted out of business committee. He has a long and 
distinguished career pressing for international religious 
freedom, and we are hopeful for his speedy confirmation so that 
his efforts and energies can join in the important work already 
ongoing within the Department.
    The challenges of religious freedom around the globe far 
exceed the efforts of any one person. They require broad 
cooperation both inside and outside of government. My 
colleagues and I work with colleagues throughout the 
Department, our missions overseas, and the White House to 
ensure that the government is working together to advance 
religious freedom overseas. While we can never do enough, we 
continue to strive to meet our obligations under the IRF Act in 
both letter and in spirit.
    We appreciate Congress' support for international religious 
freedom, and we want to continue working closely with the 
legislative branch on our shared concerns and efforts to 
advance international religious freedom. I look forward to your 
questions and to our continued cooperation on this critical 
issue.
    Thank you, Mr. Chairman.
    Mr. Chaffetz. Well, thank you. And thank you for your 
participation.
    [Prepared statement of Ms. Sewall follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Chaffetz. And we should refer to you as ``Dr. Sewall.'' 
We are going to change your nameplates out. And as long as I 
keep talking, the camera will probably stay on me and they 
won't even notice it. But, again, we thank you for your 
expertise and your passion on this issue.
    We heard previous testimony from our panelists that some 
want to see more of a stick approach; there should be more 
consequences for those who that don't participate in religious 
freedoms. And then we also heard from Mr. Smith, for instance, 
and others that said there ought to be some sort of incentives 
and rewards and some recognition for those that are actually 
moving in the right direction to encourage those types of 
behavior.
    What I see from afar is not much movement of the needle in 
the right direction. We hear some of the most horrific things 
you can possibly imagine--Boko Haram and what's going on there. 
We want to do something that's effective, that actually moves 
the needle. I think most Americans do care about this, and it 
does become the focal point of a lot of conflict around the 
world in which our men and women--you know, it gets to a much 
more serious level.
    So what, from your vantage point, actually works and that 
we need to do more of? What specifically do we need to do more 
of?
    Ms. Sewall. Well, as a former Sunday school teacher, I can 
confess that I share that desire to make our values promotion 
in the context of religious freedom, in the context of a 
broader human rights commitment, to be realized in a very 
practical level around the globe. And so I think I would like 
to respond to your question in two different ways.
    You know, first, I think one of the very clear realizations 
that we have had in the context of the ongoing conflict in both 
Syria and Iraq--and they are not new revelations, but they are 
really crystallized in the form of ISIL's rapid advance--is how 
central the question of religious freedom is to broader foreign 
policy questions and concerns that we have as a government.
    So I think one of the challenges for anyone who is 
passionately committed to the issue of religious freedom is to 
sometimes recognize where the issue is worked on with great 
fervor and commitment even if the leading tag on the issue 
isn't religious freedom per se. In other words, I think we are 
hugely and deeply involved in promoting religious freedom in 
many aspects of our foreign policy that people don't 
necessarily think of, first and foremost, as questions of 
religious freedom. And I think the ISIL frame, because of the 
brutality and the particular flavor of the evil that it 
perpetrates in the name of religion, has really raised that 
issue in a way that we haven't perhaps appreciated before.
    Mr. Chaffetz. Can you give me any example of something that 
we have done that has actually been effective----
    Ms. Sewall. Yes. Yes, Mr. Chairman.
    Mr. Chaffetz. --specific to this topic?
    Ms. Sewall. So let me talk a little bit about some of the 
things that we have done that we think the United States can be 
extremely proud of.
    Active engagement by the administration in Armenia 
encouraged the passage of a law to protect conscientious 
objectors. That may sound like a small thing, but conscientious 
objectors in the past were not allowed to have a status. And so 
that is a significant and precedential example of a concrete 
impact from engagement. It led to the release of 28 Jehovah's 
Witnesses in the fall of 2013.
    We work with international partners to train law 
enforcement practitioners on tools to combat intolerance, 
discrimination, and violence on the basis of religion or 
beliefs using methods that ensure respect for freedoms of 
speech and assembly. Those have effects that we don't 
necessarily track per se, but the training itself is very 
concrete, and it lives on in the commitment of those who carry 
it out.
    We have worked, for example, in the context of the current 
Egyptian Government, where the prosecution of a few 
perpetrators of violence against religious minorities has 
occurred, that is obviously an insufficient response to the 
broader question of religious freedom in Egypt. Nonetheless, it 
has an important deterrent effect, and it demonstrates support 
for communities that we have long recognized as besieged in the 
context of Egypt's laws.
    Tunisia, the birthplace of the Arab uprising, is a great 
example, I think, of how democracy can foster robust debates 
about how countries uphold fundamental rights. And, again, the 
constitution that was ratified in 2014 is not perfect, but I 
think we can be--we must be mindful and grateful for the 
strides that it takes in the constitution for guaranteeing the 
liberty of conscious, belief, and worship. That is a 
significant change.
    Mr. Chaffetz. Okay.
    So this new position--I mean, it is bingo night over in the 
United States Senate, so who knows if we can get this person 
actually confirmed before they go into recess. It is good to 
see movement within the committee, but to have this position 
actually confirmed by the full United States Senate, I think we 
all share the concern that it takes way too long.
    What are you going to specifically do to make sure that the 
Rabbi is at the table and has a significant portfolio so that 
he can actually, you know, help move the ball forward?
    You know, part of the concern that we heard from the first 
panel is that, at least structurally on the organizational 
chart, he's a little bit deeper into the bowels of the 
organization as opposed to a direct line of sight to the 
Secretary himself. So how do you deal with that, as somebody 
within your organization?
    Ms. Sewall. Thank you for that question, Mr. Chairman. Let 
me try to answer it in two different ways.
    I mean, first, I think, in terms of the bowels of the 
bureaucracy, I would like to think of myself as having been 
bureaucracy-free for a good many years before I had the good 
fortune to be confirmed to join this administration. It is only 
through working within the State Department that I have come to 
appreciate the centrality that the bureaus themselves play in 
ensuring that the issues that they represent are folded across 
the entire State Department's work. In other words, I have come 
to believe and see in my daily practice the advantage of being 
inside a bureau.
    So, for example, whoever is the Ambassador-at-Large will 
have limits on his or her attention. What the Bureau of 
Democracy, Human Rights, and Labor can do is ensure that that 
person and that staff is integrated into the panoply of issues, 
whether they are the questions of government reform in Tunisia 
or in Iraq or whether they are bilateral engagements with China 
or elsewhere. The reach of the Ambassador-at-Large is vastly 
magnified by being within DRL.
    And I have seen that in its manifestation. A great example 
of that, Mr. Chairman, would be the role that the Office of 
Religious Freedom was able to play in bringing information from 
the Yazidi community directly to the planners who were working 
on the military support, both the humanitarian support and the 
air strikes, and the ability to lash up that expertise and 
specialized knowledge within the realm of a larger bureau that 
was centrally engaged in a broader range of issues and then 
particularly manifest in the context of the conduct of the war.
    So I think it was a great example of how being within a 
bureau can magnify the impact of the Ambassador-at-Large.
    Mr. Chaffetz. Well, there is deep concern from a number of 
people to make sure that this position is fully implemented. I 
appreciate your commitment there. I don't doubt it. This 
position will be a newly filled position since you have had 
your confirmation. So I want to offer as much encouragement as 
we can to make sure that this person hopefully will get Senate 
confirmation sooner rather than later and that they are fully 
integrated and have a place of prominence.
    I do think the points that were made earlier, that so many 
of our Nation's conflicts are still rooted in some of the basic 
prohibitions that a lot of people have on the practice of 
religion, some of this dates back thousands of years. And they 
are difficult, emotional issues, but I think it is important to 
the United States of America. It is part of our success. And we 
want to make sure that it is given the full weight and measure.
    But I think we now will recognize the gentleman from 
Florida, Mr. Mica, for 5 minutes.
    Mr. Mica. Well, thank you. And I apologize. I came in late. 
I was delayed. But I certainly commend the chairman and ranking 
member for holding this hearing.
    And it is an important hearing. I think everyone looks to 
the United States for leadership, particularly on moral issues. 
And we have sort of tried to set the pattern throughout our 
history as a Nation that would protect human rights.
    You have an important position. How many people work with 
you in your office? Your title is Under Secretary for Civilian 
Security, Democracy, and Human Rights, Dr. Sewall?
    Ms. Sewall. My front office----
    Mr. Mica. Can't hear you.
    Ms. Sewall. Excuse me. I am sorry, Congressman.
    My front office has, I believe, about 20 people. And the 
bureaus that live within the J Under Secretariat, in cumulative 
total, number roughly 2,000.
    Mr. Mica. Two thousand people work within----
    Ms. Sewall. Across seven bureaus and offices.
    Mr. Mica. --working to protect civilian security, 
democracy----
    Ms. Sewall. We do counterterrorism work, sir.
    Mr. Mica. Uh-huh.
    Ms. Sewall. We do security sector reform.
    Mr. Mica. I see. Like, civilian security is----
    Ms. Sewall. We do counterterrorism.
    Mr. Mica. Is that like--I mean, we just lost two 
journalists, Mr. Foley and Mr. Sotloff. Would you be involved 
in those kind of cases too? They were held as hostages and 
slaughtered.
    Ms. Sewall. The Bureau of Counterterrorism is part of my 
mandate as the Under Secretary for Civilian Security, 
Democracy, and----
    Mr. Mica. So the 2,000 people that you oversee in that 
office have some of that responsibility.
    And then we are trying to get this nomination of Rabbi 
Saperstein to serve as the State Department's next Ambassador-
at-Large for Religious Freedom. Now, has that position--how 
long has that position been vacant?
    Ms. Sewall. I believe it has been vacant for almost a year. 
We are very excited about the nomination of Rabbi Saperstein--
--
    Mr. Mica. Now, does he report to you or someone else?
    Ms. Sewall. One of his first visits, I believe, was to my 
office, where he said, I need to know how important this issue 
is. And he was very vociferous in his desire to----
    Mr. Mica. But he would report to you. Is there another----
    Ms. Sewall. He reports--his office is based within the 
Bureau of Democracy, Human Rights, and Labor. He will----
    Mr. Mica. Is there another Secretary or a Deputy Secretary 
position----
    Ms. Sewall. Yes, sir.
    Mr. Mica. --between you and him?
    Ms. Sewall. He will be reporting to the Assistant Secretary 
for Democracy, Human Rights, and Labor.
    Mr. Mica. Okay.
    Ms. Sewall. He, of course, will be able to report directly 
to the Secretary with any information, updates, or questions 
that he might have. So he will be----
    Mr. Mica. So you would prepare protests, or you would--in 
cases where, like, civilians like Foley and Sotloff were 
slaughtered, do you prepare any human rights violation protests 
with--I guess, would that be directed, where people say--we had 
a witness from the--was it Nigeria?-- who spoke of the 
slaughter of Christians there.
    If there are instances where these violations are 
egregious--slaughter of innocent people because of their 
religion, or innocent civilians--you protest where? Is it the 
United Nations Human Rights Council?
    Ms. Sewall. Sir, our policy towards Nigeria has multiple 
dimensions, and many of the offices within my Under 
Secretariat, as well as the regional----
    Mr. Mica. I know, but I think one of the witnesses said 
there was more slaughter of Christians in Nigeria than all the 
other instances.
    Ms. Sewall. Yeah, I was surprised by that number. I will 
need to investigate that.
    Mr. Mica. But I would be surprised if you were surprised--
--
    Ms. Sewall. Yeah.
    Mr. Mica. --because you are in charge of that.
    Ms. Sewall. Right. It might not be accurate. So we just 
need to investigate it.
    Mr. Mica. Well, it sounds like a lot. But----
    Ms. Sewall. It is a lot.
    Mr. Mica. But what I----
    Ms. Sewall. The slaughter by Boko Haram is horrific.
    Mr. Mica. Yes. And my question is, you have a position--you 
just said you have 2,000 people that work for you. And we have 
some way to engage at the international community. Have we 
forwarded a protest from your department or the State 
Department or the United States within either the--I guess it's 
the Human Rights Council of the United Nations? Have we done 
anything?
    Ms. Sewall. I would have to investigate whether we----
    Mr. Mica. You don't know whether we----
    Ms. Sewall. I don't want to misspeak, Congressman.
    Mr. Mica. I mean, I find it astounding because----
    Ms. Sewall. I have taken an oath, so I need to be very 
careful.
    Mr. Mica. --I think that--yeah. I think that you should be 
aware, particularly where there is the slaughter of innocent 
civilians, be it media people or people for religious freedom, 
of what actions we are taking to----
    Ms. Sewall. Sure. I would love to explain them to you.
    Mr. Mica. Now, ISIS or ISIL might be a more difficult 
entity to come after because it is not a defined state, but 
certainly Nigeria is.
    Ms. Sewall. Uh-huh. Would you like to know what we have 
done on behalf of our efforts against Boko Haram in Nigeria?
    Mr. Mica. From you now, yes.
    Ms. Sewall. I could explain because I have been to Nigeria 
to raise these issues----
    Mr. Mica. No, but it's not there too. It's also--to bring 
this to world attention--this is the Department of State 
witness, Mr. Chairman, isn't it?--we deal in these 
international bodies; we lodge protests. And someone in the 
State Department, the Secretary or someone, has to initiate an 
action in a body, and that's our--we deal with other states.
    So my question is, what have we done----
    Ms. Sewall. We talk to other states repeatedly----
    Mr. Mica. But we have not lodged anything or initiated----
    Ms. Sewall. I can repeat my answer. I will need to check 
and find out whether or not we have lodged----
    Mr. Mica. Again, I found it astounding, Mr. Chairman, that 
a witness could come before us on an issue like that and not 
know if we have even lodged a protest in the appropriate 
international body.
    If there is some other international body you've protested 
to or taken action to, I would like to know.
    For the record, maybe she could submit it. Thank you.
    Ms. Sewall. I would be happy to.
    Mr. Chaffetz. Thank you.
    I now recognize the gentleman from Massachusetts, the 
ranking member, Mr. Tierney, for 5 minutes.
    Mr. Tierney. Thank you, Dr. Sewall. And thank you for your 
good wishes earlier on in your testimony.
    I understand that you are not the person that would be 
making any objections to international bodies and others. It is 
probably left to the Secretary, on that basis. But please tell 
us what you have done, particularly with respect to Boko Haram, 
and what actions you took in your position and capacity.
    Ms. Sewall. Thank you.
    Well, it is a team effort because the President has spoken 
directly to the President about his concern and ways in which 
we can help them defeat this scourge. We have been leaders with 
some of our closest NATO allies in trying to build a global 
coalition--or, sorry, a regional coalition to defeat Boko 
Haram. We have had numerous regional meetings where we have 
sought to encourage the neighbors to increase their military 
activity as well as their information-sharing.
    We have made significant inroads in helping the Nigerian 
government understand their need to be more responsive, not 
simply on a military level but also in the context of 
addressing some of the grievances that exist in the northeast.
    This is an issue that has been on the U.S. diplomatic radar 
screen and has been the focus of a wide range of meetings in 
different European capitals, in Nigeria. We have been sounding 
the alarm about Boko Haram. We have condemned its violence 
against all Nigerians--Christians but also Muslims.
    And I think, you know, the First Lady's concern with the 
behavior of Boko Haram has been a great example of American 
values and engagement at work. And the notion that we have not 
been significantly--and our example of highlighting the abuses 
of Shekau's really brutal campaign against all Nigerians has 
been front and center in our Nigeria policy and our engagement 
with allies and with others to try to highlight the 
difficulties that exist there now.
    Mr. Tierney. I think you started to indicate that you 
personally had taken a trip to Nigeria on that basis.
    Ms. Sewall. Yes.
    Mr. Tierney. Would you relate to us what your impressions 
are of the responsiveness that you were getting from Nigerian 
officials when you make a presentation?
    Ms. Sewall. Thank you for that question.
    I went--I would have to check on the date. I believe it was 
about 2 months ago, when I went as part of a delegation. We 
were, at the time, concerned--and I testified before the 
House--to convey our concern about the Nigerian Government's 
recognition of the fundamental violations of human rights in 
northeast Nigeria and, in particular, their failure to mobilize 
effectively to confront the military threat of Boko Haram.
    I can tell you that a more recent delegation, which 
included my colleague at the State Department, Assistant 
Secretary Linda Thomas-Greenfield, just returned from Nigeria, 
where they reported that the Nigerian Government, while now 
extremely concerned, has yet to be able to take effective 
action. And so we are in discussion now within the government 
about ways in which we might further encourage action both by 
Nigeria and by its neighbors because the situation is extremely 
dire.
    Mr. Tierney. Do you think that Nigeria has the capacity----
    Ms. Sewall. I am concerned that Nigeria does not have the 
capacity, sir.
    Mr. Tierney. Thank you.
    Is there anything else you want to add in terms of Nigeria 
and where you think we ought to go?
    Ms. Sewall. No----
    Mr. Tierney. To help build that capacity, for instance.
    Ms. Sewall. Well, there is a host of challenges in trying 
to work with Nigeria, not the least being--and this relates to 
the broader point that I was trying to make about how 
mainstream questions of religious tolerance are. Because they 
are part of a question of governance and whether or not a 
government is responsive to its people and protects all of its 
human rights, to include the freedom of religion.
    I think that the protection of rights in the northeast or 
the attention to rights in the northeast has not been what it 
was. And that, in turn, allows for--creates conditions in which 
it is easier for extremism of other forms to thrive.
    And so, as we look to promote religious freedom, we can do 
so with the confidence that when we advocate our values 
overseas to foreign governments we are actually advocating 
something that is, even though they may not see it in the short 
term, very much in their long-term interest, which is to 
promote tolerance and freedom and human rights as a state so 
that they can hope to enjoy greater stability within the state.
    And it is a theme that we see not just in Nigeria. We see 
it also in Iraq and Syria. We see it in many places around the 
globe.
    And the fact that the United States is consistently raising 
freedom of region and human rights in its engagements 
bilaterally, even with countries with whom we fundamentally 
disagree on a number of issues, I think, speaks to its 
centrality in U.S. foreign policy and the fact that, while 
Rabbi David Saperstein will be an enormous boost and we all 
hope for his speedy confirmation--and I, for one, am really 
looking forward to having him join the team in the State 
Department--this is work that goes on every day by many 
officials within the Department, and it is truly a central 
element of our foreign policy today.
    Mr. Tierney. Thank you, Doctor.
    Yield back.
    Mr. Chaffetz. Just a few more questions as we wrap up.
    You would acknowledge that Christians, at least at this 
time, are the most persecuted group around the world; is that 
your belief?
    Ms. Sewall. I think Christians are extremely persecuted 
around the world.
    Mr. Chaffetz. Do you not agree that they are the most 
persecuted at this point?
    Ms. Sewall. I don't have the numbers in front of me, so it 
is hard for me to say that as a statistical matter. But I am 
completely open to getting back to you with the numbers on that 
question, sir.
    Mr. Chaffetz. When would you get back to us with those 
numbers?
    Ms. Sewall. If the numbers exist, I will be back to you 
later this afternoon.
    Mr. Chaffetz. Okay. I would hope that, at your level of 
your expertise--and you've got a number of things you're 
responsible for--that you would have those at your fingertips 
at any given time.
    Ms. Sewall. But, sir, I don't need the numbers to know that 
the persecution of Christians is wrong and should be an 
American foreign policy priority, as the persecution of all 
religious minorities is.
    Mr. Chaffetz. I would agree that all--what I don't see is 
any success.
    Ms. Sewall. Well, I could--could I continue on that for a--
--
    Mr. Chaffetz. There are a host of materials and information 
and third-party groups and we just heard testimony from a whole 
host of people who've made, I think, a very solid point that 
what is happening or not happening in the State Department, it 
isn't working.
    Ms. Sewall. Well, I don't disagree. And I said in my 
testimony that we can never do enough to guarantee religious 
freedom any more than any other human right around the world. 
It is an uphill climb, but we are committed.
    And I think you would be really interested in at least this 
set of facts. In the last few years, at least 100 people 
imprisoned for their faith have been released following USG 
advocacy in eight countries in the Middle East, South and 
Central Asia, East Asia, and Africa. It is not an exhaustive 
list, but I know that we all long for some quantitative measure 
of impact, and I can at least with confidence give you that.
    Mr. Chaffetz. And I appreciate that. I look forward to 
having that and seeing that. I would also hope that you would 
be receptive to some of the other very worthwhile, credible 
outside groups who have done a host of this work and listen to 
their perspective, as well.
    Let me ask you about one of the policy recommendations. And 
it seems simple to me that there would be or should be an 
annual designation. Is that something that off the top of your 
head is objectionable, to annually try to evaluate and make 
some sort of designation? Is there any reason not to do that?
    Ms. Sewall. When I have asked the office about that issue, 
I get a very interesting answer, which is that they are 
constantly reviewing for designation. There is no minimum 
requirement or maximum requirement; they are constantly in that 
process.
    And so I think that, as facts on the ground change and as 
the reviews continue, my understanding is that that is the 
basis on which they then designate, that it is not----
    Mr. Chaffetz. So it would be relatively easy, if the 
Congress were to request something to just compile, that what 
seems to be constantly in motion, to have some sort of date or 
whatnot, that we could get this annual designation. Is that 
fair?
    Ms. Sewall. I'm sorry, could you repeat the question?
    Mr. Chaffetz. So if Congress were to designate a date by 
which we try to do some sort of annual report, that that 
shouldn't be extraordinary in terms of effort and something--if 
it's constantly in motion, to just simply take a snapshot in 
time.
    Ms. Sewall. Well, as you know, the administration has many 
reports that it is required to report. So----
    Mr. Chaffetz. Well, my understanding is that this year's 
designations were the first one--at least the staff is telling 
me, this year's were the first since 2011. So they are sporadic 
at best. And we will explore this with you. If there's other 
reasons, something that we're not thinking of, I'd appreciate 
it if you'd share that with us.
    But it seems like a simple request. It would give us a good 
snapshot. It would remind us, and I think it would be 
important, that--as was pointed out, the last thing you want to 
do is designate a country as somewhat problematic and not have 
them have the ability to climb off that list.
    And it should be just, in my personal opinion, much more 
than a list. There needs to be some sort of consequence. There 
needs to be some sort of reward, some sort of reason to, you 
know, move in the right direction. I guess that's the point.
    I have a host of other questions, but in the absence of 
what we're doing here and the time, I guess my last comment 
would be: We would certainly appreciate it in the future if we 
could have your participation, and other people in the State 
Department, on one panel rather than two panels. The 
opportunity to just share in the spirit of cooperation and 
understanding, that we have one panel to share these things 
back and forth, I think we would find that we would be very 
bipartisan. And we may get to the point where we have to insist 
on that, but I'd appreciate your consideration to be able to 
have that on the one panel. It would be a better use of the 
Congress' time, I think a better use of your time. And we would 
ultimately come up with a better product. And I'd appreciate--
--
    Ms. Sewall. I suspect I'm entering a long--a long history 
with regard to that issue. And----
    Mr. Chaffetz. It has been back and forth. And I think we 
are going to have to be more insistent in making sure that we 
have productive panels and that we have the good, candid 
dialogue.
    I know you are committed to what you do and your passion in 
what you do. You are very accomplished in your background. I 
appreciate the type of talent and thought that you bring to 
this.
    It is, obviously, a concern of ours that the religious 
liberties, religious freedoms become an integral part of the 
State Department's efforts in all of our foreign policy. It is 
very important. It should not be delegated to just one of those 
other things we need to check the box on. And that's, I think, 
the impression that we're trying to leave with you and with 
others.
    And I appreciate the good men and women who do work on this 
issue within the State Department and those in the outside 
groups who care passionately about these issues. And we thank 
all of you for your participation today. I think we learned a 
lot from this, and we've got to make sure that we actually act 
upon it.
    So, with that, we will stand adjourned. Thank you.
    Ms. Sewall. Thank you, Mr. Chairman.
    [Whereupon, at 4:11 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
